                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: I07070022                                                                           Page 11 of 1



         Our office was notified by an institution' that one of its professors2, a principal investigator on an
         NSF award3, misrepresented his educational credentials. Consequently, the institution took
         administrative action against the professor.4

          We determined the subject misrepresented the status of hisher doctoral degree in t h e e NSF
          proposals5 and three journal publications. One of the three NSF proposals was funded, so we
          interviewed the program ~ f f i c e rThe
                                               . ~ program officer stated that the subject's degree status did not
          affect the funding decision in this case.

         We determined that under the circumstances presented in this case, the actions taken by the
         institution adequately protect the Federal interests. We reminded the institution of its obligation to
         notify NSF of any problems relating to an award, as outlined in GC-1, Section l a and of the
         obligations imposed by the certification requirement on all NSF proposals. We also notified the
         subject that NSF was aware of hislher misrepresentations and that NSF expects all statements in
         proposals to be accurate.

          Accordingly, this case is closed.




NSF 01G Form 2 (1 1/02)
